fl-ppe-vfO >y

ll

-)
No. 20-6934

IN The
Supreme Court of the United States

Fred Cartwright
Petitioner(s)
VS.
Silver Cross Hospital and Medical Centers and
Crothali Healthcare Inc.
Respondent(s)
PETITIONERS PETITION FOR REHEARING

RECEIVED
APR 2 8 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

Pro Se Petitioners, Fred Cartwright {"Petitioner"), main pursuant to rules 44 that is
associated to Rules 13 and 20 submits this reply of Petitioners' Petition for Rehearing, of the
Supreme Court "Denial" of "Petitioners Motion for Leave Request for Special Consideration,
Under Extraordinary and Exceptional Circumstances for an Extension of Time, Before Filing
Petitioners' Petition for Writ of Certiorari and Motion for leave to proceed in forma pauperis"
that was sent by via mail on November 4,2020.
I.

THE MAIN QUESTION IS WAY A ERRONEOUS "DISMISSAL" "WITH PREJUDICE" DICISION
MADE BY THE PRESIDING FEDERAL JUDGE

Petitioner would like a clear understanding of the rule of law was applied to legalize the Judges
Erroneous "Dismissal" decision and the "With Prejudice" decision and the Petitioner has listed
how, why and when each incident happened. It is hard for the Petitioner to focus and
concentrate and the information below came from Petitioners June 26, 2019 Trial Exhibit 52 of
the Plaintiffs' Motion Response to Judges’ Ruling of the Termination of the Civil Case Etc.

1 of 8

Plaintiff did not ignore the Judge's Courts Order sent on June 24, 2019 to appear for the
June 25, 2019 and June 26, 2019 deposition as Plaintiff explains in further detail. Plaintiff again
didn't ignore the Court's Orders and did not properly seek a good faith continuance, because
the Plaintiff never reviewed the Judge's June 24, 2019 Docket text {235} sent at 2:15pm on that
day because the Plaintiff did not see the Docket Text. The Plaintiff only reviewed the Judge's
Docket Text {236} sent at 4:31pm after the 2:15pm Text and the Plaintiff was excited that he
was granted his oral motion to file his status report on or before June 25, 2019 because Plaintiff
was still engaged in preparing the status report. When the Plaintiff opened up the electronical
filing, the transactions of Docket Text {236} appeared and the Plaintiff was very tired and
excited about what he was view and never viewed the above transaction Docket Text {235} to
open it, due to the Plaintiff's weariness and extreme excitement the Docket Text {235} was
never seen nor opened at that time. The Plaintiff only became aware of the Docket Text {235},
after Judge Blakey entered his transaction Docket Text {238} on June 25, 2019 at 4:14pm
dismissing and terminating Plaintiff Civil Case and the Plaintiff was in shock and wondering
what was going on and thought Judge Blakey was upset about the Plaintiff's status report and
exhibits etc. The Plaintiff just woke up about 30 minutes or so, just to see if he received any
transactions Docket Text from the Court and Judge Blakey regarding the status report etc. and
became very ill and was feeling retaliated against all over again. The Plaintiff began frantically
intensely trying to find the transaction Docket Text {235} that Judge Blakey was referring to in
his Docket Text {238} for the Plaintiff to view. The Plaintiff frantically searched for Docket Text
{235} and still overlooked the {235} Docket Text a few times again and was only viewed the
Defendants Notice to appear for deposition and was out of my mind believing that was what
Judge Blakey was referring to and The Plaintiff was thinking about what the Defendants
Counsels was telling the Plaintiff due their conversation on June 7, 2019 and at that time the
Plaintiff was telling the Defendants that, the Plaintiff had already followed the Courts Order to
be deposed for deposition and the Court, Judge Blakey and the Defendants forced the Plaintiff
to appear at the March 22, 2019, April 23, 2019 and April 24, 2019 depositions through threats
of dismissing Plaintiff's Case, despite numerous of warranting from the Plaintiff regarding his
mental illnesses etc. and the Plaintiffs being under Doctors, Psychiatrist and Counselors care
with Doctors Orders. Plaintiff abided the Courts, Judge Blake/s and the Defendant's
threatening orders and risk his life three times appearing for the Defendants depositions and
Defendants are now still complaining that the Plaintiff did not answer the Defendants
questions, due to the Plaintiffs mental state, physical conditions and because of that lack of
memory, so they should have another shot to depose the Plaintiff for deposition despite the
Plaintiff stating his physical condition is still ongoing and worsened. The Plaintiff feels by being
forced the three times, the Defendants lost their golden opportunity by defaulted of not
applying to the Plaintiffs Doctors Orders etc. and should have rescheduled the deposition until
the Doctors, Psychiatrist and the Counselors evaluations has finalized for the Court, Judge
Blakey and the Defendants viewing. The Plaintiff still would like to be depose for deposition
because the Plaintiff has nothing to fear, as long as the Plaintiff be provided the opportunity to
be cared for with treatments from his Doctor, Psychiatrist and Counselors and that way the
Plaintiff as(mistake "ask) for the Court, Judge Blakey and the Defendants to reschedule or delay
this Case for 90 days and not absorb any unnecessary costs and still get their deposition.

2 of 8

Back to the Plaintiff search for the Courts Orders for Plaintiff to appear for deposition on
June 25, 2019. The Plaintiff were thinking about the Defendants Notice to appear for deposition
and continue to overlook the other Docket Text {235} and seeing Docket Text {236] and then
the Plaintiff took a break to relax. The Plaintiff once again continued search and finally opened
up the June 24, 2019 Court Order Docket Text {235} and the Plaintiff became more ill once
again by view the Text {235} in astonishment that the Court really did Order the Plaintiff to
appear for a deposition the next day June 25,2019, less then 24 hours way from the time
Transaction Court Order Docket Text {235} was sent.
Plaintiff was in shock and could not breathe for a minute and had to lay down. After a
while, the Plaintiff felt that if he would have known about the Courts Order, he would have filed
to seek a good faith continuance as same as in the past. Due to the Plaintiff deadline to have his
status report done and submitted June 25, 2019 and had stayed up all day Monday and
Monday night June 24, 2019 until the time the status report was sent at 1:01pm Tuesday June
25, 2019.
Plaintiff also believes the Courts Orders was ill-advised and should have allowed the
Plaintiff enough time to appear for a deposition and the Plaintiff was given less than 24 hours to
do so. While the Plaintiff was under a deadline to have the status report done and sent the
same day of the deposition and the time frame of the deposition being sent or submitted is the
same reason why the Plaintiff should have not been Ordered for deposition the next day. Due
to everything that has transpired such as, the Plaintiff health issues and time frame of deadline,
the Plaintiff believes the deposition Court Orders should not have been issued at that time the
Court had just granted less than 24 hours before the deposition.
Respectfully, the Plaintiff would not have appeared for the depositions, because the
Plaintiff was not able to appear for the reasons stated above. Plaintiff states his apologies to
the Court, Judge Blakey and the Defendants for the Plaintiff honest mistake of not realizing the
Courts Order while enduring significant stress, anxiety and no sleep etc. and trying to complete
and trying to finish up the status report the same day before or by the deadline on the days of
deposition. As everyone knows, the Plaintiff would have filed a good faith continuous the same
as in the past Court Orders due to the Plaintiff situations and issues etc. The Plaintiff spoke
about the deposition that the Defendants wanted during our phone conversation and the
Plaintiff thought that is what Judge Blakey was talking about. The Plaintiff never intends to
allow for the Defendants to endure extra unfair costs of coming to Chicago, only if the Plaintiff
knew of such mistake was being made, the Plaintiff would definitely have filed a good faith
continuous motion.
The Plaintiff at this time ask the Court to reinstate the Plaintiffs Civil Case for the
Plaintiffs sincere and truthful explanation of the course of events that has taken place.
Plaintiff also ask the Court for a continuous for 90 days for the Plaintiff to undergo
continuous treatments from Plaintiffs Doctor, Psychiatrist and Counselors to be provided a
complete evaluation and/or for the Plaintiff health and physical to be improved enough to
complete his depositions and the 90 days continuous would not cause the Court, the Judge or
the Defendants any unjust costs or inconvenience. Plaintiff had to relax to prepare this Motion
and it took some time.

3 of 8

II.

SYSTEMIC RACISM ON BLACK PEOPLE AT ITS WORST

The Petitioners emergency request a temporary delay before the Petitioner files his Petition
that the Courts would award to millions of superior white Americans with and without legal
counseling and whom would be provide legal counseling under similar and less similar
circumstances with medical issues etc., that is not awarded to Black People. (1) I, the Petitioner
are angry about the way I have been treated with Systemic Racism for a at least 66 years of my
life at birth etc., (2) throughout my 5 years of working for the Respondents Toxic and Gross
Discrimination until it cause the Plaintiff Damages of a collaborated, coverup, protecting,
ignoring and complicit of a Hate Crime Plot by the Respondents non-African Americans Plot to
Kill the Plaintiff incident while making two attempts along with 12 other Separate Counts of
Allegation etc. and violation of the Constitution, (3) Systemic Racism by a Police Department
collaborated, coverup, protecting, ignoring and complicit of a Hate Crime etc. and violation of
the Constitution (4) Systemic Racism by the States Attorney's Office collaborated, coverup,
protecting, ignoring and complicit of a Hate Crime etc. and violation of the Constitution, (5)
Systemic Racism by a EEOC's lack of service, possibly collaborated, coverup, protecting, ignoring
and complicit of a Hate Crime etc. and violation of the Constitution, (6) Systemic Racism by a
Police Department coverup, protecting, ignoring and complicit of a Hate Crime etc. and
violation of the Constitution, (7) Systemic Racism by a Federal Courts Judges Gross Dereliction
of Duty etc., coverup, threating, intimidating, protecting, ignoring and complicit of a Hate Crime
etc. and violation of the Constitution, (8) Systemic Racism by a Magistrate Judges Gross
Dereliction of Duty etc., coverup, threating, intimidating, protecting of Colleagues and others
etc., ignoring and complicit of a Hate Crime etc. and violation of the Constitution, (9) Systemic
Racism by a Federal Courts Appointed Legal Counsel's Gross Misrepresentation, one counsel
whom made Racist remarks and Racist comments that was ignored by a Federal Judge after
being advised and put on notice, being intimidated and bullied etc., by a Federal Judge, Gross
Dereliction of Duty etc., coverup, protecting of Colleagues and others etc., ignoring and
complicit of a Hate Crime etc. and violation of the Constitution, (10) Systemic Racism by four
Courts of Appeals Circuit Judges Gross Dereliction of Duty etc., coverup, protecting of
Colleagues and others etc., ignoring and complicit of a Hate Crime etc. and violation of the
Constitution, (11) the Jury at this point is still out on the Supreme Court for the United States
and the Supreme Court has the opportunity to stop this (12) this is not retaliation by the
Petitioner, the Petitioner only wanted freedom, fairness, transparency and Justice, this is not
going away despite all the parties listed above has lost their way, ethics and moral principles by
protecting and being complicit with Systemic unfair Justice, wrongdoing and corruption etc. The
Petitioner believes he has hundreds of thousands of factual documents of evidence in every
phase of the Petitioners lawsuit that's everyone involved in the Petitioners Civil Case and
Appeals are fully aware of and the truth will not remain the secret of the Systemic Racist
Corrupt Courts and Justice System. No one has disputed nor discredited any the Petitioners
employment and all other allegations made by the Petitioner and never once attempt to invoke
an immediate investigation to get the truth. The Petitioner and everyone understand, if one or
two people are put under oath and a investigation begins, everything will fall apart, because no
one wants to put their jobs and family lives on the line and go to jail for or to protect their
colleagues or someone else.

4 of 8

III.

BEFORE FILING "PETITION FOR WRIT OF CERTIOARARI"

Before the Petitioner actually filed a formal Petition document for the Petitioners "Petition
for Writ of Certiorari" and the Petition was not meant to be a formal, legitimate or an official
filing. Because the Petitioner called the Supreme Court before filing and spoke to one of the
Clerks about the Petitioners request for time to file the Petitioners "Petition for Writ of
Certiorari" and the Clerk said I, the Petitioner would have to file the "Petition for Writ of
Certiorari and Motion for leave to proceed in forma pauperis" first, in order to receive an
answer regarding the Petitioners request for time (now stating, approximately six months for
treatment and care while following Doctors orders etc.) before actually file the Petitioner
"Petition for Writ of Certiorari" etc. On November 4, 2020, the Petitioner "Petition for Writ of
Certiorari" was sent by via mail and received by the Supreme Court on November 10, 2020 and
sent back for corrections by another Clerk, Clara. The Petitioner address the Petition to the
chief Justice, John Robert for the Supreme Court. The non-formal filing was clearly a
misunderstanding. See Petitioners Appendix BB for the details.

IV.

QUESTIONS ON PETITION FOR WRIT OF CERTIORARI DEMIAL LETTER MARCH 29, 2021

Petitioner received the Supreme Court March 29, 2021 two sentence denial letter that I
received on April 1, 2021 regarding the Petitioners Petition for a Writ of Certiorari, that was not
meant to be filed as such, that the Petitioner has detailed in roman numeral 1 paragraph. The
Petitioner would like to know;
1. On November 4, 2020 the Petitioner sent a letter to Chief Justice John Robert with a
Petition for special consideration for an extension of time before Filing the Petitioners'
Petition for writ of Certiorari due to the Petitioners exceptional circumstances of
damages that was caused by the Respondents Extremely Malicious, Racist and Toxic
behaviors (1-a) Respondents dysfunctional behaviors caused the Petitioner to lose his
wife and family serious damaging harm that force the Petitioners request for time
Please view Petitioners Appendices provide to the court with the Petitioners request
for Rehearing (1-b) the Petitioner did not understand why what happen, happened and
never received a response back from Chief Justice John Roberts.
2. Did the Chief Justice John Roberts his other colleagues of Justices understand the
Petitioners medical situation after receiving the Petitioners evaluation from Petitioners
7 independents Doctors and caregivers that is unpreventable by the Petitioner
3. The Petitioner would like to know if the Petitioners Petition was voted on by the 9
Justices, (3-1) the Petition provided numerous of Appendices that contains an
overwhelming amount of factual documents
4. The Petitioner needs the time and don't what more I can do but continue the help the
Petitioner is receiving, that is not enough, due to the time needed and financial issues
etc.
5. The Petition is having a hard time sleeping, focusing and concentrating etc.

5 of 8

V.

PETITIONERS REQUEST FOR HUMAN DECENCY, COMPASSION AND EMPATHY

The Petitioner are still dealing with and suffering from the Petitioners ongoing medical disability
conditions with medication that cause the Petitioner to severe incapable to focus and
concentrate, while dealing with (PTSD) post-traumatic stress disorder issues and other ongoing
issues that was caused by the Respondents damages, that has been provided in detail
throughout the Civil Case 15-CV-06759, Court of Appeals Case 19-2595 and in the Supreme
Court Appeal Case 20-6934 that continues in the Petitioners Petition for Rehearing" Motion.
View the Petitioners (November 4, 2021revised Supplemental Brief Appendix on January 30,
2021, Appendix A, B, C-l, C-2, C-3 and C-4) and (a new independent Therapist/Counselors
Felicia Acosta's evaluation of the Petitioner 1 of 3 pages Appendix B-l) and (a new independent
Psychiatrist Jill Degen's evaluation of the Petitioners 1 of 2 pages Appendix B-2 Plus B-3 of 1
page Psychiatrists bill) and (Appendices BB, CC and T-5 1-page) that the Petitioner provided
with this Petition for Rehearing for more details.
Petitioner has provide several Appendices vital and relevant documents
Appendix BB - Petitioners November 4, 2020 Letter to Supreme Court for the United States
Chief Justice John Roberts request for special consideration for extension of time before filing a
Petition for Writ of Certiorari due to exceptional circumstances of Petitioner to follow Doctors
Orders, to receive treatment and care from Petitioners Psychiatrist and Therapist/Counselors.
Appendix CC - Petitioners November 4, 2020 Proof of Service & Notice of Appeals
Appendix B-l - Petitioners fourth or fifth New Independent Therapist/Counselors updated
evaluation.
Appendix B-2 - Petitioners Second New Independent Psychiatrist updated evaluation.
Appendix B-3 - Petitioners New Psychiatrist first Bill that the Petitioner is unable to Pay.
Appendix T-5 - Petitioners August 5, 2020 first page Document Letter to the United States
District Court to Thomas G. Bruton.

Executed on April 2-2, 202-1
------- ^
(Signature)

6 of 8

No.

20-6934

IN The

Supreme Court of the United States

Fred Cartwright
Petitioner(s)
VS.
Silver Cross Hospital and Medical Centers and
Crothall Healthcare Inc.
Respondent(s)
PETITION STATE THE GROUNDS ARE LIMITED TO INTERVENING CIRCUMSTANCES OF
SUBSTANTIAL OR CONTROLLING EFFECT OR TO OTHER SUBSTANTIAL GROUNDS NOT
PREVIOUSLY PRESENTED
Pro Se Petitioner, Fred Cartwright ("Petitioner"), pursuant to rule 44 submits this reply
of Petitioners' Petition State the Grounds are limited to intervening circumstances of
substantial or controlling effect or to other substantial grounds not previously presented, zero
tolerance means zero tolerance for Racial Discrimination in the workplace, in the courts and in
the United States of American, in regard to the Petitioner being denied Protection from Civil
Rights Hate Crime Plot to be Killed by non-African Americans, and of Disability Act Rights
Violations of December 12,1905 to Equal Opportunities, Protection of Rights and Full
Participation while ignoring Civil Rights Violations etc., Fourteenth Amendment's Equal Rights
protection Clause and free from Workplace Hate Crime Act 720 ILCS 5/12-7.1 etc., Human Right
Act Violations of Articled, 3,4, 5, 6, & 7 Federal Rights Violations and Constitutional Rights that
outlines the Bill of Rights such as 1,7, 8, 9 & 10 etc. Violations in pursuant t

iiiRCCEiVED
MAY 2 5 2021

1 of 11

•ffice of the clerk
qiiprEME

COURT. U.S.

Constitution Article 1. Bill of Rights Sections 2, 3,4,5,12,13,17,18, 23 & 24, Federal Patient
Bill of Rights, (American Disabilities Act Title I. Employment, Title II., 42 U.S.C. §§ 12101 et seq.,
42 U.S.C. §§ 12102 et seq., including all other evidence Petitioner has listed throughout,
provided and submitted that supports all the Petitioners undisputed, undoubted, uncontested,
unchallenged and unquestionable facts which are substantial of real worth and importance in
what the Plaintiff has submitted throughout the Plaintiffs Civil Case, Appellants Appeal Case in
the Court of Appeals, in the Petitioners Appeals with the Supreme Court for the United States
this reply of the Petitioners' constitutional rights welfare, legal rights welfare, human rights
welfare, civil rights law under ADA Title 1 welfare, social welfare, Americans with Disabilities
Act, disability welfare, health and welfare, treatment and care welfare, safety welfare of
damages, that was caused by the Defendants, the Petitioner did his best, but unable to properly
focus and concentrate considering the Petitioners ongoing mental and physical medical
condition the was caused by the Respondents years of Systemic Racism and Abuse etc. The
Petitioner certify that the Petition for rehearing is presented in good faith and not for delay that
would be highly appreciated that would be a justifiable for human decency on other substantial
grounds not previously presented of vital and relevant Appendices listed below. The Petitioner
had an opportunity to be represented by Legal Counsel, but it was very disappointing for the
Petitioners chances for Counsel fall through, due to the passing of the Attorney, Scott A.
Schimanski, L.L.M., J.D., while the Petitioners were waiting for a return decision call.

I.

BRIEF HISTORY

The Petitioner is 66 years old and was with my wife for about 40 years until I lost my job, my
wife and I did not understand (PTSD) post-traumatic stress disorder that was caused by the
Defendants damages and that’s why we are separated, and I struggle receiving help, treatment
and care etc. The Petitioner started working for the Defendants 2008 until 2013. The Petitioner

2 of 11

has face Racism after starting and I was working two jobs for about month and felt the racism
would blow over since I quit the other job. My family was important, and this is going beyond
brief, I will detail more fact over the hundreds of factual evidence of documents ten times over. I
am suffering from ongoing mental and physical medical condition, while not being able to
properly concentrate and focus on anything at this time. The Petitioners are resending
Appendices etc. of documents dated April 22, 2021, that was provided to the Supreme Court.
Please understand the Petitioner mental and physical medical condition and the emergency need
to follow Doctors Order while receiving more adequate treatment and care that’s limited from
Petitioners Independent Psychiatrist and Therapist/Counselors and not able to properly respond
to the Supreme Courts requests until the Petitioner can receive the proper treatment and care
requested for the Petitioner to have an equal and fair opportunity that was requested numerous of
times and long overdue. The Petitioner has provided numerous of document that details the
Petitioners emergency requests in all document submitted to the Higher and Lower Courts.
The Petitioner has provided Appendices of sufficient factual evidence of documentation of the
Respondents Toxic and Disturbing Systemic Racism continuous their patterns of participating in
Systemic Racial Discrimination etc., for years and it continued years after the Respondents
ended the Petitioners employment though retaliation and to the Respondents Tactically stopping
the Petitioners from exercising his First Amendment Constitutional Rights etc. The Respondents
onslaught of Systemic Dysfunctional Barbaric behaviors will continue, if the Supreme Court and
other do not step in and stop their Criminal actions, Destructions of Corruptions in the
Workplace for African Americans. View the Petitioners other Appendices that was provided for
more details and information that supports this Petition and the Petitioners Case of illness etc.
n.

PETITIONERS 13 SEPARATE COUNTS OF ALLEGATIONS

A. Petitioner believes immediate action must be taken by invoking an prompt investigation
(to save American) of (a) these types of workplace Hate Crime Plot by non-African
Americans to Kill the Plaintiff, an African American and (a-1) the non-African Americans
admitted to their employer to Plotting to kill the African American co-worker and (b)
while the non-African American employee was being unpunished and protected by his
employers (b-1) the Plaintiff a African American was punished by being terminated by
their employers, for speaking out about the Defendants Racist Actions etc. and (b-2)
the Petitioner only wanted an opportunity to work without being killed nor Plotted
against to being Killed by non-African Americans, (b-3) whom have already made two
attempt without the African American becoming aware of the Plot to be Killed etc. and
(b-4) African Americans must be protected be their Employers, the lower and higher
Courts and the United States Government etc. (c) while the African American co­
worker, employee, victim and Plaintiff was (c-1) harassed by employers, (c-2) bullied by
employers, (c-3) intimidated by employers, (c-4) documents falsified by the employers
to protect their non-African Americans employee from prosecution etc., to keep the
Plaintiff quiet form exposing every allegation mentioned, (c-5) state of the arts video
tapes stollen, lost or destroyed, by their employers, which would have been impossible
to lose state of the arts video tapes, (c-6) Constitutional Rights violated, (c-7) First
Amendments Constitutional Rights Violations, (c-8) illegally falsifying documents to

3 of 11

terminate a African American by the employees dysfunctional action to coverup a
workplace Civil Rights Hate Crime while Creating an Hostile workplace environment for
African Americans, (c-9) conspiracy by employers, (c-10) obstruction of justice violation
by influencing, obstructing, impeding, colluding, conspiracy and interfering with a
criminal Civil Rights Hate Crime Police Officers investigation, and (d) Plaintiffs employers
are believed to have engaged in another obstruction of justice by influencing,
obstructing, impeding and interfering with a criminal Civil Rights Hate Crime of the Joliet
States Attorney Department Officials investigation and, (d-1) the New Lenox Police
Department may have also engaged in obstruction of justice by influencing, obstructing,
impeding, colluding, conspiracy and interfering with a criminal Civil Rights Hate Crime
investigation by the Joliet States Attorney's Departments Officials investigation (d-2) the
non-compliance by the New Lenox Police Department and the Joliet District States
Attorney's Department prompts invoking an immediate investigations for failure to act
on an Public Official Duties (e) Police Brutalities of Killing or Plotting to Kill Incidents on
African Americans should and must prompt invoking an immediate investigation at all
times before the Statute of limitations run out by all Opposing Parties vicious, ruthless
and dangerous attempts to obstruct, conceal, hide and destroy vital Evidence,
intentionally and illegally attempts to running out the clock of the statute of limitation
to deliberately avoiding exposing the truth of the Plaintiffs Civil Case 15-CV-06759
lawsuit of corruptions and stop the Defendants and others to hope to avoid prosecution
etc. while denying fair justice for Petitioner and other African Americans. All the
Defendants Opposing Parties must be held accountable for their actions, (f) Petitioners
Medications Escitalopram, Venlafaxine, Quetiapine, Clonazepam and Trazodone
Hydrochloride
EH.
RULES OF LAW AND PRINCIPLES APPLIED (RLPA)
WHILE VIEWING THIS SECTION VIEW APPENDIX LL-1 FOR PERFECT DETAILS AND
EXPLANATION
A. Petitioner believes the U.S. District Court Civil Case 15-cv-06759 presided by Federal
Judge John Robert Blake/s should have a Rule of Law decision Applied and Principle
Applied with a reasonable and Apply the correct Rules of Law and Principles Applied
(RLPA) to the "Error or Mistake" and the rule in the Federal Judge's "Erroneous
Dismissal" "With Prejudice" Decision for Correction in Judgment/Decision "Without"
any other discipline, punishments or prosecution to anyone in regard to the Mistake
Error of the "Erroneous Dismissal" "With Prejudice" Decision and all the Petitioner
would only like to proceed with the Plaintiffs Original Lawsuit, in fairness for the
Plaintiffs to have its day in Court with and a Jury Trial. If that is not a possibility, the
Petitioner would like the Supreme Court to "Invoke an immediate prompt
investigation that everyone avoided doing for fairness and for transparency. The
Petitioner would like to know if the correct RLPA was correct and Justifiable.
(a-1) Regards to Judge Blake/s Dismissal Decision, Judge Blakey clearly understood the
Petitioners health and medical issues since 2016, because at that time, the Petitioner
requested Doctors assistance from the Judge and the Petitioners Courts Appointed

4 of 11

Counsels, and the Petitioner has documents to the appointed Counsel and that can be
verified Trial Exhibits and Appendices, (a-2) Judge Blakey made a questionable and
Tactic statement in March 21, 2019 Docket Text: (DKT) minute entry was "Furthermore,
the cursor excuse slip fails to explain how Plaintiffs; recent medication for anxiety and
depression prevent him from traveling to the courthouse for his deposition or
answering questions in a deposition for (what the slip only vaguely describes as) 'long
periods of time." (The Judges decision was putting the Petitioners life in danger each
and every time without allowing the Petitioner request for treatment, care, to follow
Doctors Orders or be provided Legal Counseling who would fairly represent the
Petitioner with the help of the Court and Judge and for the same reasons, of when
Petitioner appeared for one deposition and was sent home by the Respondents and
believed to have been approved by the Judge and the Petitioner had to go to the
Doctors Office offer leaving) and Judges statement following that was "even though
Plaintiff might benefit from being evaluated by a Psychiatrist, the motion and excuse
slip provide no evidentiary details upon which the request for delay remains based,
and provide no basis to an evaluation by any certain date (if at all), etc." Please view
the whole DKT for clarity etc. to clearly understand the Systemic disproportionate
issues of a Black Man. Please understand nothing about this Complex Case can be as
Brief as the Supreme Court request and that only hurts the Plaintiff of not being able
to completely explain while dealing with TPSD, Stress and Anxiety etc. (b) Petitioner
would like for a RLPA for the Judge Blake/s "With Prejudice" Decision, (b-1) Because the
Petitioner was not provided a fair opportunity for a person with a disability, under
medication, under Doctors orders and not provided time to be treated and cared for
with disregards to Professional Scholars in the medical field nor provided the Petitioner
time to obtain a more adequate excuse slip or Evaluation from the Plaintiffs Doctors (b3) as every sees and clearly understands now, following, reviewing and examining all the
Petitioners Independents Professional Scholars of the medical field Evaluations should
clear everybody's mains of any doubts of the Petitioners authenticity of the Petitioners
evaluations and (c) the Petitioner complete Case should be taken under consideration
and not cherry-pick one side or the other by applying the Rules of Law and Principle
Applied (RLPA). (e) Judge Blakey wrongfully "Partial Summary Judgment" for the
Plaintiffs Sex/Gender Allegation was throughout the Plaintiff time Working for the
Defendants (f) Judge Blakey made illegal Partial Summary Judgment on Plaintiff
"Defendants Created an Hostile Workplace Environment" Decision without the
Defendants filing a motion to deny one of the Plaintiffs main Allegations because
Creating an Hostile workplace Environment was throughout the Plaintiffs time working
for the Defendants (g) Judge Blakey just laminated some of the Plaintiffs other
Allegations without a "Partial Summary Judgment" filing to dismiss.
IV.

MISREPRESENTATION AND RACIST STATEMENTS AND COMMENTS ETC. BY THE
PETITIONERS COURTS APPOINTED LEGAL COUNSELS

Federal Courts Appointed Counsels for Plaintiff was (1) inexperience, unwilling or protecting
the non-African Americans, powerful, high profile and wealthy individuals in defending their

5 of 11

African American client in Civil Case and, (2) Refusing with the opportunity to file a Civil
Rights Hate Crime Lawsuits and, (3) refusing with the opportunity to file an Class Action
Lawsuits on, (4) misrepresentation by Petitioners Counsels by looking for an way out of
litigating Petitioners Civil Case, (5) to quicky end the case like the presiding Judge asked for,
with proof of one Counsel wrongful actions and (6) Petitioners last Counsel's Amy Joan
Thompson's made Racist statement and comments talking to her Client and (7) with the
presiding Judge Blake/s stamp of approval by not address the Racial problem when the
Petitioner mentions the Racial issue of misrepresentation at the status hearing in front of
Witnesses, and the Petitioners request the Supreme Court invoke an immediate and
prompts investigations of the Petitioners whole Civil Case 15-cv-06759 and Appeals Case 192595, view all Petitioners Courts Reporter Transcripts that the Petitioner was denied access
to or viewing, Docketing Statements, Trail Exhibits, Appendices (8) unwilling to track down
and follow up on compelling Witness out of over 75 Witness the Petitioners Counsels may
have only talk to less than 10, (9) unwilling to complete interrogatories, that that Judge
Blakey called recycled when they became incomplete and unfinished each time the Courts
Appointed Counsels withdraw as Petitioners Counsel along with production for documents
and discovery process, etc. (10) Counsel was unwilling to address or pursue numerous
charges and allegations, (11) Counsels failure and unwilling to contact the 12 individuals
who signed the Plaintiffs Racial Discrimination petition to see if they have been intimidate,
threaten, bulled or terminated for their participation in signing the racial discrimination
Petition and be part of a Class Action lawsuit (12) Plaintiffs Counsels failure to investigate
and protect the 12 individuals Constitutional Rights to peacefully petition and their
wellbeing while ensuring protection from harassment, bullying, intimidations and from
being terminated etc. by their employers, the Defendants (13) Plaintiffs Counsels
intentionally fails to pursue a Racial Class Action Lawsuit, that was in the Counsels interest
to secure them a short case and the plaintiff very limited representation (14) which would
be an "Conflict of interest" by Plaintiffs Courts Appointed Counsels, that prompts invoking
an immediate investigation by the Supreme Court (15) Counsels intentionally refuse to
investigate, or consider investigating, made no attempt to file an Civil Right Lawsuit under
the Plaintiffs Constitutional Rights (16) failure to fully commit to prosecuting defendants
(17) failure to address wrong doing such bullying, intimidation, abuse of duty/position etc.,
by the presiding Judge (Federal Judge John Robert Blakey) at the June 12, 2017 Settlement
Conferences hearing (18) spent significant and valuable time looking for his client, the
Plaintiff another attorney to represent the Plaintiff in his Lawsuit, while realizing and having
the knowledge Counsels client cannot afford to pay one "conflict of interest" "abuse of
duty" and "Illegal Misrepresentation" (19) Everything the Plaintiff and stated throughout
Plaintiff Civil Case and Appeals Cases is the truth and request invoking an speedy prompt
and immediate investigations, the facts of evidence has been provided for all to see within
Motions, Notices Briefs, Docketing Statements, Courts Reports Transcripts and motions
letters to the Federal Judge John Robert Blakey that the Plaintiff was never permitted to
obtain through numerous requests, Trial Exhibits and in Appendices. (20) and Petitioner
continues to fear for his life by the Defendants and all Opposing Parties and if I, the
petitioner has an accident, please invoke a speedy prompt and immediate investigation into
the Petitioners death.

6 of 11

V.

UNDERSTANDING YOUR RIGHTS TO THE RULES OF LAW AND PROCEDURES

1. What are the 5 civil liberties?
Though the scope of the term differs between countries, civil liberties may include the freedom
of conscience, freedom of press, freedom of religion, freedom of expression, freedom of
assembly, the right to security and liberty, freedom of speech, the right to privacy, the right to
equal treatment under the law and due
•

Right to a jury trial

Bill of Rights
Right of trial by jury in civil cases.
Freedom of religion, speech, press, assembly, and petition.
Is the right to work a civil liberty?
Civil rights concern the basic right to be free from unequal treatment based on certain
protected characteristics (race, gender, disability, etc.) in settings such as employment,
education, housing, and access to public facilities.
2. Is the 14th Amendment a civil liberty?
The overwhelming majority of court decisions that define American civil liberties are based on
the Bill of Rights, the first ten amendments added to the Constitution in 1791.... Civil rights are
also protected by the Fourteenth Amendment, which protects violation of rightsand liberties by
the state governments.
3. Is Due Process a civil right?
Civil procedural due process
As construed by the courts, it includes an individual's right to be adequately notified of charges
or proceedings, the opportunity to be heard at these proceedings, and that the person or panel
making the final decision over the proceedings be impartial in regards to the matter before
them.
4. What exactly are civil rights?
Civil rights are personal rights guaranteed and protected by the U.S. Constitution and federal
laws enacted by Congress, such as the Civil Rights Act of 1964 and the Americans with
Disabilities Act of 1990. Civil rights include protection from unlawful discrimination.
5. How is the 14th Amendment used today?
In practice, the Supreme Court has used the Due Process Clause of the 14th Amendmentto
guarantee some of the most fundamental rights and liberties we enjoy today. It protects
individuals (or corporations) from infringement by the states as well as the federal government.

7 of 11

6. How is due process violated?
Due process is the legal requirement that the state must respect all legal rights that are owed
to a person.... When a government harms a person without following the exact course of the
law, this constitutes a due process violation, which offends the rule of law.
7. What are the two due process clauses?
Due process under the Fifth and Fourteenth Amendments can be broken down into two
categories: procedural due process and substantive due process. Procedural due process, based
on principles of fundamental fairness, addresses which legal procedures are required to be
followed in state proceedings.
8. What is considered a violation of civil rights?
A civil rights violation is any offense that occurs as a result or threat of force against a victim by
the offender on the basis of being a member of a protected category. For example, a victim
who is assaulted due to their race or sexual orientation. Violations can include injuries or even
death.... Race.
International Bill of Rights
• The right to equality and freedom from discrimination.
•

The right to life, liberty, and personal security.

•

Freedom from torture and degrading treatment.

•

The right to equality before the law.

•

The right to a fair trial.

9. What is the most important civil right?
Civil rights are an essential component of democracy. They're guarantees of equal social
opportunities and protection under the law, regardless of race, religion, or other
characteristics. Examples are the rights to vote, to a fair trial, to government services,
and to a public education.
10. What is difference between civil rights and civil liberties?
Civil liberties are freedoms guaranteed to us by the Constitution to protect us from
tyranny (think: our freedom of speech), while civil rights are the legal rights that protect
individuals from discrimination (think: employment discrimination).... You have
the right to a fair court trial. Jan 20, 2021
11. Who do civil rights apply to?
Civil rights include the ensuring of peoples' physical and mental integrity, life, and safety;
protection from discrimination on grounds such as race, gender, sexual orientation, gender
identity, national origin, color, age, political affiliation, ethnicity, religion, and disability; and
individual rights such as Personal liberty definition, the liberty of an individual to do his or
her will freely except for those restraints imposed by law to safeguard the physical, moral,
political, and economic welfare of others.

8 of 11

VI.

QUESTIONABLE UNANSWERED JUDGMENTS AND DECISIONS BY THE COURTS

A. Petitioner like a Rule of law and Principle Applied to the Plaintiffs Civil Case 15-cv06795 that Applies to the District Court By Federal Judge John Robert Blakey "Dismiss"
Decision and with the "With Prejudice" Decision.
B. Petitioner like a Rule of law and Principle Applied to the Appellants Appeal Case 192595 that Applies to the Court of Appeals by Circuit Judge Amy Coney Barrett and her
Colleagues Daniel A. Manion, Diane S. Sykes and Amy J. ST. Eve "final Judgment"
Decision.
C. Petitioner like a Rule of law and Principle Applied to the Petitioners Appeals Case 206934 that Applies to the Supreme Court by unknown "Denied" Decision.
(view Appellants previously Independent Scholars of Caregivers Evaluations and Excuse Slips
provided Appendices that was completely ignored listed below,
Appendix A of Psychiatrist Evaluation,
Appendix B of Therapist/Counselors Evaluation,
Appendix C-l of Doctors Excuse Slip,
Appendix C-2 of Doctors Excuse Slip,
Appendix C-3 of Doctors Excuse Slip and
Appendix C-4 of Doctors Excuse Slip for verification of the Petitioners medical condition by
Independent Professional Scholars in the medical field of medicine etc.),
View Petitioners new Independent Scholars of Caregivers Evaluations and Psychiatrist Bill,
Appendices list below.
Appendix B-l of Therapist/Counselors Evaluation,
Appendix B-2 of Psychiatrist Evaluation,
Appendix B-3 of Psychiatrist Bill the Petitioner cannot afford to pay.
Petitioner are providing new documents listed below that support the Petitioners states the
Grounds are limited to intervening circumstances of substantial or controlling effect or to other
substantial grounds not previously presented.
Appendix K of January 29, 2018 SUBPOENAS from the "ILLINIOIS DEPARTMENT OF

HUMAN RIGHTS" of the "CHARGES", "COMPLAINTS" and "CLAIMS" FILED against
the Respondents "JUST FROM" 1/1/08 through 12/31/14, the Supreme Court are
not seeing many years of Respondents Systemic Racist Dysfunctional, Barbaric
behaviors.

9 of 11

Appendix K-2 of February 14,2014 Racial Discrimination document that was provided
to the Respondent by their employees, that was provided to the Petitioner for the
first time through discovery from the Respondents.
Appendix U-7 of July li, 2017 to Brian T. Maye Regarding details of (a) the Federal
Judge John Robert Blakey who was trusted by the Plaintiff at the time to fairly
Mediate the Plaintiffs June 12, 2017 Settlement Conference Hearing,

Respectfully Submitted,

DATED: May 18, 2021.

CERTIFICATE OF SERVICE
The undersigned Petitioner, Fred Cartwright, Pro Se Party, pursuant to rule 44 hereby
certifies that On May 18, 2021 that support the Petitioners states the Grounds are limited to
intervening circumstances of substantial or controlling effect or to other substantial grounds

not previously presented., he caused the foregoing, submits this reply related to the that support
the Petitioners states the Grounds are limited to intervening circumstances of substantial or
controlling effect or to other substantial grounds not previously presented, the Petition for

rehearing is presented in good faith and not for delay be submitted to the SUPREME
COURT FOR THE UNITED STATES CLERK’S OFFICE, of the UNITED STATES
DISTRICT COURT FOR THE NORTHERN DISTRICT OF ILLINOIS EASTERN DIVISION,
and to APPELLEE’S SILVER CROSS HOSPITAL AND MEDICAL CENTERS AND
CROTHALL HEALTHCARE, INC.’S, and not filed electronically via the Northern District of
Illinois’s electronic filing system, and due to Appellant’s financial difficulties a copy of the same
to be served on the Appellees’ (not Appendices, upon requests) by via mail and not by emails
nfinkel@sevfarth.com . William.Dugan@bakermckenzie on the parties listed below:
10 of 11

Fred Cartwright
[NTC Pro Se]
Direct: (815) 582-3116
507 E. Cass Street
Joliet, EL 60432
Fredcart64@gmail.com
William F. Dugan (ARDC 6275793)
[COR LD NTC Retained]
BAKER & MCKENZIE LLP
300 East Randolph Street,
Suite 5000
Chicago, IL 60601-6342
Direct: (312) 861-8000
Office: (312) 861-3075
Facsimile: (312) 698-2960
Fax: (312) 698-2480
William.Dugan@bakermckenzie
Noah A. Finkel, Attorney (ARDC# 6224910)
[COR LD NTC Retained]
SEYFARTH SHAW LLP
233 S. Wacker Drive
Suite 2400
Chicago, IL 60606-6448
Direct: (312)460-5000
Office: (312) same
Fax: (312)460-7000
nfmkel@sevfarth.com
Respectfully Submj

DATED: May 18, 2021.

i7 FrecUeartwright

11 of 11

CERTIFICATE OF SERVICE
The undersigned Appellant, Fred Cartwright, Pro Se Party hereby certifies that
On April 22, 2021, he caused the foregoing, submits this reply of Petitioners’ Petition for
Rehearing, for at less an (6) six month extension for evaluation to be submitted to the
SUPREME COURT FOR THE UNITED STATES CLERK’S OFFICE, of the UNITED
STATES DISTRICT COURT FOR THE NORTHERN DISTRICT OF ILLINOIS EASTERN
DIVISION, and to APPELLEE’S SILVER CROSS HOSPITAL AND MEDICAL CENTERS
AND CROTHALL HEALTHCARE, INC.’S, and not filed electronically via the Northern
District of Illinois’s electronic filing system, and due to Appellant’s financial difficulties a copy
of the same to be served on the Appellees’ by via mail and by not by emails
nfmkel@sevfarth.com. Arthur.Rooney@.bakermckenzie. com on the parties listed below:
Fred Cartwright
[NTC ProSe]
Direct: (815) 582-3116
507 E. Cass Street
Joliet, IL 60432
Fredcart64@gmail .com
Arthur James Rooney, Attorney (ARDC 6275793)
[COR LD NTC Retained]
BAKER & MCKENZIE LLP
300 East Randolph Street,
Suite 5000
Chicago, IL 60601-6342
Direct: (312) 861-2838
Office: (312) 861-3075
Facsimile: (312) 698-2960
Fax: (312) 698-2480
arthur.roonev@bakermckenzie.com
Noah A. Finkel, Attorney (ARDC# 6224910)
[COR LD NTC Retained]
SEYFARTH SHAW LLP
233 S. Wacker Drive
Suite 2400
7 of 8

Chicago, IL 60606-6448
Direct: (312) 460-5000
Office: (312) same
Fax: (312) 460-7000
nfinkel@sevfarth. com

Respectfully Submitted,
^s/^Fred^Cart^ight

DATED: April 22, 2021

8 of 8

Additional material
from this filing is
available in the
Clerk's Office.

